No. ________________
IN THE SUPREME COURT OF THE UNITED STATES
MARTIN SHKRELI,
Petitioner,
vs.
UNITED STATES OF AMERICA,
Respondent.
PROOF OF SERVICE
I, Nikolina Gurfinkel, do swear or declare that I am retained by Counsel of Record for
Petitioner. On this date, October 10, 2019, I have served the enclosed PETITION
FOR A WRIT OF CERTIORARI on each party to the above proceeding or that
party’s counsel, and on every other person required to be served, by giving (3) three
true copies of same, addressed to each individual respectively, and enclosed in a
properly addressed wrapper, to Federal Express for Overnight Delivery, postage
prepaid.
The names and addresses of those served are as follows:
Solicitor General of the United States
Department of Justice
950 Pennsylvania Avenue, N.W.
Room 5616
Washington, D.C. 20530-0001
That on the same date as above, I sent to this Court (40) forty copies of the within
Petition for a Writ of Certiorari via Federal Express Overnight Delivery, postage
prepaid.
All parties required to be served have been served.
I declare under penalty of perjury that the foregoing is true and correct.
Sworn to before me this
October 10, 2019.
s/ Nikolina Gurfinkel
ORIGINAL

36548

